No. 19-1091
IN THE

Supreme Court of the United States
STEVE RAY EVANS,
Petitioner,
v.
SANDY CITY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Kevin P. Martin, counsel of
record and a member of the Bar of this Court, certify this 23rd day of June 2020 that
the Reply Brief for Petitioner contains 2,994 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

June 23, 2020

/s/ Kevin P. Martin
Kevin P. Martin
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
kmartin@goodwinlaw.com
(617) 570-1186
Counsel for Petitioner

